                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                      MEMORANDUM OF INVESTIGATION

 Case Number: 110090044                                                                    Page 1 of 1



          We received an allegation that a Co-PI 1 on an NSF award 2 was misusing the NSF Award funds
          to support expenses unrelated to the NSF award. The Grantee University 3 conducted an internal
          review that identified unallowable expenditures 4 and removed them from the award. We
          requested and reviewed all financial documentation and determined the allegation was not
          substantiated.

          This investigative case is closed with no further action taken.




                                                                                        Date
Affix your signature;                                                  07/3/2012
Print your name; insert
date MOl completed.

NSF OJG Form 4 (11 /02)
